Audit Report - Office of Justice Programs Weed and Seed Grants
Awarded to the City of Compton, California

Office of Justice Programs Weed and Seed Grants
Awarded to the City of Compton, California

Audit Report GR-90-05-008


September 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Weed and Seed grants awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to the City of Compton (Compton) located in Los Angeles County, California.  The purpose of the grants is to weed out crime from targeted neighborhoods and seed the target sites with a wide range of crime and drug prevention programs as well as service agency resources to prevent crime from recurring.  As of September 19, 2003, OJP awarded Compton two grants totaling $940,000.

Operation Weed and Seed is a community-based approach to combating violent crime, drug use, and gang activity in high-crime neighborhoods.  The City of Compton Weed and Seed project (Project) has utilized a collaboration of both funded and non-funded service providers with an array of individuals representing law enforcement agencies, community organizations, and concerned residents.  These individuals and organizations have assisted in leveraging other resources to improve the quality of life and reduce criminal activity within the targeted area.

We tested Comptons accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines and terms and conditions of the grant.  We found Compton to be in compliance with OJPs grant requirements and adequate controls were taken over the accounting process and grant-related records.  We determined that costs claimed for reimbursement were allowable, supported and in accordance with applicable laws, regulations, guidelines and terms and conditions of the grant.

Although our report contains no recommendations, details of our review are discussed in the Findings and Recommendations section of the report.  Our audit objective, scope, and methodology appear in Appendix I.

We discussed the results of our audit with Compton officials and have included their comments in the report, as applicable.  In addition, we provided the grantee and OJP with a draft of our audit report and requested formal responses.  Although Compton did not respond with formal written comments, OJP did respond and its written comments were appended to this report.